Supremo Court, U.S
FILED

FEB 2 2 2021
OFFICE OF THE CLERK

NO.

IN THE
COKlLff m SHE inOaEfl S5A5E&

GILBERTO ANTONIO GUILLEN-HERNANDEZ,
Petitioner,

v.
THE STATE OF TEXAS,

Respondent.

On Petition for a Writ of Certiorari
To the Court of Criminal Appeals of Texas

PETITION FOR A WRIT OF CERTIORARI

GILBERTO ANTONIO GUILLEN-HERNANDEZ
PETITIONER
TDCJ No. 02193887
Barry B. Telford Unit
3899 State Highway 98
New Boston, Texas 75570-5669
Main Phone:(903)628-3171

QUESTION PRESENTED
This Court recently recognized that the term ’’trial by an im­
partial jury,” contained within the Sixth Amendment of the United
States Constitution, requires jury unanimity. The Court further
recognized that said requirement applies to state and federal
criminal trials equally.
Petitioner was convicted of continuous sexual abuse by a jury
that was not required to agree unanimously on which two or more
specific acts of sexual abuse were committed by Petitioner or the
exact date when those acts were committed. To date

the Court of

Criminal Appeals of Texas has not written on the constitutionali­
ty of the statute that authorizes the jury to convict a defendant
without unanimity.
This Court has not directly spoken on the constitutionality
of continuous sexual abuse statutes that do not require a jury to
unanimously agree on the particular acts of wrongdoing committed

j

by a defendant.
This case, therefore, presents the following question:
Does the constitutional requirement of jury unanimity, con­
tained within the Sixth Amendment of the United States Constitu­
tion, require a jury to be unanimous as to the specific acts of
sexual abuse in order to convict a defendant of continous sexual
abuse?

Guillen-Hernandez v, Texas

i

PARTIES TO THE PROCEEDINGS BELOW
This petition stems from a Petition for Discretionary Review
proceeding in which Petitioner, Gilberto Antonio Guillen-Hernandez, was the Appellant before the Court of Criminal Appeals of
Texas. Mr. Guillen-Hernandez is a prisoner who was convicted of
the offense of Continuous Sexual Abuse of a Child in the 458th
Judicial District Court of Fort Bend County, Texas. The State of
Texas was the Appellee before the Court of Criminal Appeals of
Texas.
Mr. Guillen-Hernandez asks that the Court issue a Writ of
Certiorari to the Court of Criminal Appeals of Texas.

RULE 29.6 STATEMENT
Gilberto Antonio Guillen-Hernandez, Petitioner, is not a cor­
porate entity.

Quillen-Hernandez v. Tex'as

ii

TABLE OF CONTENTS
Page
Question Presented..........................

i

Parties to the Proceedings Below

ii

Rule 29.6 Statement

ii

Petition for a Writ of Certiorari

1

Opinion and Orders Below

1

Jurisdiction

1

Statute and Constitutional Provisions Involved

1

Statement of the Case

2

Reasons for Granting the Petition............................................

3

Conclusion and Prayer for Relief..............................................

5

Appendix A - Court of Criminal Appeals of Texas Judgment
Refusing Petition for Discretionary Review

Guillen-Hernandez v. Texas

m

PETITION FOR A WRIT OF CERTIORARI
Petitioner Gilberto Antonio Guillen-Hernandez respectfully
petitions the Court for a writ of certiorari to review the judg­
ment of the Court of Criminal Appeals of Texas.

OPINIONS AND ORDERS BELOW
On November 25

2020, the Court of Criminal Appeals of Texas

issued a judgment refusing Mr. Guillen-Hernandez's Petition for
Discretionary Review. The November 25, 2020, refusal is unpub­
lished and attached hereto as Appendix A.

JURISDICTION
The Court of Criminal Appeals of Texas had jurisdiction over
the Petition for Discretionary Review under Rule 68 of the Texas
Rules of Appellate Procedure. The judgment of the Court of Crim­
inal Appeals of Texas was entered on November 25, 2020. This
Court has jurisdiction pursuant to 28 U.S.C. § 1254(1).

STATUTE AND CONSTITUTIONAL PROVISIONS INVOLVED
Texas Penal Code § 21.02(d) provides that "If a jury is the
trier of fact, members of the jury are not required to agree
unanimously on which specific acts of sexual abuse were committed
by the defendant or the exact date when those acts were commit­
ted."
The Sixth Amendment to the United States Constitution pro­
vides that "In all criminal prosecutions,' the accused shall enjoy
the right to a speedy and public trial, by an impartial jury of
the State and district wherein the crime shall have been commit­
ted, which district shall have been previously ascertained by
Guillen-H'eT.nandes v. Texas

1

law.”
The Fourteenth Amendment to the United States Constitution
provides that "No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life, liberty,
or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws."

STATEMENT OF THE CASE
Petitioner was convicted of continuous sexual abuse by a jury
that was authorized by state law to return a verdict of guilty
without being unanimous on the aetus reus element of the offense.
It was alleged that Petitioner committed two or more acts of sex­
ual abuse during a period that was 30 or more days in duration.
Each alleged act of sexual abuse is a violation of the Texas Pe­
nal Code that when tried alone require jury unanimity. Under Texas' continuous sexual abuse statute

a jury is authorized to dis­

pense with unanimity concerning the two or more acts of sexual
abuse.
When this Court recently decided in Ramos v. Louisiana, 590
U.S. ___ , 2020 WL 1906545 (April 20, 2020), that the term "trial
by an impartial jury," within the Sixth Amendment requires jury
unanimity, Petitioner's case was pending on direct appeal and not
yet final.
Petitioner submitted the present issue to the Court of Crim­
inal Appeals of Texas in his Appellant's Petition for Discretion­
ary Review. The court considered the merits of Petitioner's peti­
tion and ultimately decided to refuse the petition.
Guillen-Hernandes v, Texas

2

REASONS FOR GRANTING THE PETITION
By denying Petitioner's Petition for Discretionary Review,
the Court of Criminal Appeals of Texas has decided an important
question of federal law that has not been, but should be, settled
by the Court. The question is important, recurs frequently, and
is perfectly presented on this record. The Court should grant
certiorari to stop Texas' and other states' curtailment of de­
fendants': constitutional right to a unanimous verdict.
I.

The Question Presented is Important and Recurs Frequently.
The importance of this issue—whether the requirement of jury

unanimity applies to the actus reus element for an offense of
continuous sexual abuse—is self-evident. See Ramos v, Louisiana,
590 U.S.

, 2020 WL 1906545 (April 20, 2020).

The Court touched on the issue of jury unanimity in continu­
ous sexual abuse cases in Richardson v. United States

526 U.S.

813, 816 (1999). In considering the jury unanimity requirements
of a different state statute, the Court, by analogy, discussed
the jury unanimity issues that have arisen in the context of con­
tinuous sexual abuse statutes adopted by various state legisla­
tures. The Court noted that continuous sexual abuse statutes typ­
ically allow "jury disagreemnt about a 'specific' underlying
criminal 'incident' insisting only upon proof of a"'continuous
course of conduct' in violation of the law." 526 U.S. at 821. The
Court observed that in doing so, the States were likely respond­
ing to the special difficulties inherent in proving the individual
criminal acts in such cases, and that the special subject matter
of such cases indicates that they represent an exception to the
Guillen-Hernandez v. Texas

3

general rule requiring a jury to unanimously agree on the partic­
ular acts of wrongdoing committed by a defendant. Id. at 821-23.
In light of Ramos v. Louisiana

the Court's direct attention to

the issue is now warranted.
Following a plea of not guilty, Gilberto Antonio GuillenHernandez, Petitioner, was convicted by a jury of one count of
continuous sexual abuse of a child. Petitioner was sentenced to
life imprisonment without the possibility of early release. By a
single issue, Petitioner contends that Texas Penal Code § 21.02(d)
violates the newly recognized constitutional requirement of a
unanimous jury verdict.
A person commits the offense of Continuous Sexual Abuse of
Young Child if during a period of 30 or more days in duration, a
person who is age 17 or older commits two or more acts of sexual
abuse against one or more victims who are under the age of 14.
TEX. PEN. CODE § 21.02(b). Subsection (d) states, "If a jury is
the trier of fact, members of the jury are not required to agree
unanimously on which specific acts of sexual abuse were committed
by the defendant or the exact date when those acts were committed.
TEX. PEN. CODE § 21.02(d).
There are more than 20 alleged acts of sexual abuse that qual­
ify for prosecution in this case. These acts fall under Section
21.11

Indecency with a Child, Section 22.011

Sexual Assault,

and Section 22.021, Aggravated Sexual Assault. TEX. PEN. CODE §
21.02(c). While jury unanimity is not required about the two or '
more specific acts committed for this particular offense, a less­
er included offense conviction for a crime requiring a singular
Guillen-Hernandes v. Texas

4

act can only be had if the jury agrees unanimously to a specific
act. See Solis v. State, 353 S.W.3d 850, 854 (Tex.Crim.App. 2011).
By charging a defendant with continuous sexual abuse, the prose­
cution bypasses the Sixth Amendment's requirement of jury unanim­
ity.
In sum, allowing a jury to convict a defendnat without being
unanimous as to the specific acts of sexual abuse—the actus reus
element of the offense?-*in a prosecution for continuous sexual
abuse fails to ensure that the constitutional requirement of jury
unanimity is fulfilled. Petitioner's conviction by a nonunanimous
jury violates his right to a jury trial, as guaranteed by Amend­
ments VI and XIV to the United States Constitution.
As a result, Petitioner respectfully suggests that some guid­
ance from the Court is warranted.

CONCLUSION AND PRAYER FOR RELIEF
Gilberto Antonio Guillen-Hernandez prays that the Court grant
this petition for a writ of certiorari to resolve the Question
Presented.
Dated: February 12, 2021.

Respectfully submitted,
GILBERTO ANT
0 GUILLEN-HERNANDEZ
PETITIONER
TDCJ No. 02193887
Barry B. Telford Unit
3899 State Highway 98
New Boston Texas 75570-5669
Main Phone:(903)628-3171

Guillen-Hernandez v. Texas

5

